         Office of Inspector General

         May 12, 2014

         Mr. Kamran Khan
         Vice President, Department of Compact Operations
         Millennium Challenge Corporation
         875 15th Street, NW
         Washington, DC 20005

         Management Letter No. M-000-14-004-S

         Dear Mr. Khan:

         The Office of Inspector General (OIG) is following up on an informal recommendation made to
         the resident country director at the time of the limited scope review of the Millennium Challenge
         Corporation’s (MCC) projects in Mongolia in 2012. At that time, OIG recommended that MCC-
         Mongolia help the Millennium Challenge Account (MCA)-Mongolia develop and distribute
         information to beneficiaries of an energy and environment project on proper installation of new
         stoves.

         In the winter of 2011-2012, two small children died in a yurt fire due to an improperly installed
         energy-efficient stove subsidized by MCC’s compact with the Mongolian Government. OIG
         found that the MCA-Mongolia contractor’s responsibility was limited to installing the stoves,
         while beneficiaries themselves were responsible for creating and installing the stoves’
         chimneys. No formal standards or directions existed to tell beneficiaries about what chimneys
         should be made from or how to position them so they would be safe. Having this information is
         crucial because the chimneys for these stoves get much hotter than those normally used in
         yurts. In addition, a yurt’s roof is often made of cloth, which can catch on fire easily.

         OIG is following up on its informal recommendation and asks MCC to provide a response to this
         letter on the actions taken to prevent any future occurrence of fires associated with the project.



                                                      Sincerely,

                                                      /s/

                                                      Melinda Dempsey
                                                      Deputy Assistant Inspector General
                                                      Office of Audit



Office of Inspector General
1401 H Street, N.W.
Suite 770
Washington, DC 20005
http://oig.usaid.gov
EVALUATION OF MANAGEMENT
COMMENTS
On June 12, 2014, MCC provided a formal response to our letter (included as Appendix I).
MCC agreed with the OIG’s recommendation and made changes to the procedures for stove
installation. MCA-Mongolia required new buyers to have fire-proofing preparations completed
before installation of the new stoves in the yurts and provided information to previous
participants about the fire hazards, proper use and maintenance of stoves, and the need to
install fire-proofing.




                                              3
cc:   Karla Chryar, MCC, Administration and Finance
      chryarkl@mcc.gov

      Don Geiger, MCC, Senior Accountant
      geigerdr@mcc.gov

      Robert Fry, OIG, Director
      rfry@usaid.gov

      Jennifer Huynh, OIG, Program Analyst
      jhuynh@usaid.gov




                                             2
Appendix I
Appendix I
